Nos. 19-715, 19-760

IN THE

Supreme Court of the Initeb States
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC; THE
TRUMP CORPORATION; DJT HOLDINGS LLC; THE DONALD J. TRUMP REVOCABLE
TRUST; AND TRUMP OLD POST OFFICE LLC,

Petitioners,

V.

MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES,

Respondents.

DONALD J. TRUMP; DONALD J. TRUMP, JR.; ERIC TRUMP; IVANKA TRUMP; DONALD J.
TRUMP REVOCABLE TRUST; TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC;
DJT HOLDINGS LLC; DJT MANAGING MEMBER LLC; TRUMP ACQUISITION LLC; TRUMP
ACQUISITION, CORP.,

Petitioners,

V.

DEUTSCHE BANK AG; CAPITAL ONE FINANCIAL CORPORATION; COMMITTEE ON
FINANCIAL SERVICES OF THE UNITED STATES HOUSE OF REPRESENTATIVES;
PERMANENT SELECT COMMITTEE ON INTELLIGENCE OF THE UNITED STATES HOUSE OF
REPRESENTATIVES,

Respondents.

On Application for Leave to Exceed Word Limit
CERTIFICATE OF SERVICE
I, Alan D. Strasser, a member of the Bar of this Court, hereby certify that on
this 29th day of January, 2020, I caused to be served by overnight carrier one copy
of the Committees' Unopposed Application For Leave To Exceed Word Limit on each
of the following counsel:

William S. Consovoy
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Jerry D. Bernstein
lnbal P. Garrity
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5000
jbernstein@blankrome.com
igarritv@blankrome.com
Pratik A. Shah
Akin Gump Strauss Hauer & Feld, LLP
2001 K Street N.W.
Washington, DC 20006
(202) 887-4210
pshah@akingump.com
James A. Murphy
Murphy & McGonigle, P.C.
1185 Avenue of the Americas
21st Floor
New York, NY 10036
(212) 880-3968
jmurphy@mmlawus.com

I further certify that all parties required to be served have been served.

+a S

Alan D. Strasser
January 29, 2020

